Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 





MEDICARE COMPLIANCE REVIEW 

   OF NEW YORK UNIVERSITY 

  LANGONE MEDICAL CENTER 

 FOR THE PERIOD JULY 1, 2008, 

 THROUGH DECEMBER 31, 2010 



  Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                           Public.Affairs@oig.hhs.gov. 





                                                   James P. Edert 

                                              Regional Inspector General 


                                                    December 2012 

                                                    A-02-n-01043 

                        Office ofInspector General
                                          http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs andlor its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations offraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, andlor civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program gnidance, publishes fraud alerts, and provides
other gnidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oiq.hhs.qov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND 


Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. CMS contracts with Medicare contractors to, among other
things, process and pay claims submitted by hospitals.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary's stay is assigned and the severity level of the patient's diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary's stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children's Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the ambulatory payment classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

New York University Langone Medical Center (the Hospital) is a 1,069-bed acute care hospital
located in New York, New York. Based on CMS's National Claims History data, Medicare paid
the Hospital approximately $711 million for 37,389 inpatient and 289,617 outpatient claims for
services provided to beneficiaries during the period July 1, 2008, through December 31,2010.

Our audit covered approximately $3.5 million in Medicare payments to the Hospital for 305
inpatient and 62 outpatient claims that we identified as potentially at risk for billing errors.
These 367 claims had payment dates from July 1, 2008, through December 31,2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.
SUMMARY OF FINDINGS 


The Hospital complied with Medicare billing requirements for 187 of the 367 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining 180 claims, resulting in overpayments totaling $613,279 during the period
July I, 2008, through December 31,2010. Specifically, ISS inpatient claims had billing errors
resulting in overpayments totaling $589,018, and 25 outpatient claims had billing errors resulting
in overpayments totaling $24,261. These overpayments occurred primarily because the Hospital
did not have adequate controls to prevent incorrect billing of Medicare claims and its staff did
not fully understand the Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $613,279, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

NEW YORK UNIVERSITY LANGONE MEDICAL CENTER COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed with part of our first
recommendation and described actions that it has taken to address our second recommendation.
The Hospital disagreed with 101 of the 129 inpatient short stay claims questioned in our draft
report. Specifically, the Hospital stated that, based on the clinical indications demonstrated by
the patient and supported by the documentation in the medical record, the physician
determination for admission was justified and medically necessary for each of the claims. The
Hospital's comments appear in their entirety as the Appendix.

After reviewing the Hospital's comments, we maintain that our findings and recommendations
are valid for all but one inpatient short stay claim. We utilized both the Medicare contractor
medical review staff and an independent medical review contractor to determine whether 93
inpatient short stay claims met medical necessity requirements. Based on the contractors'
conclusions, we determined that 92 inpatient short stay claims should have been billed as
outpatient or outpatient with observation services. The independent medical review contractor
determined that one claim was correctly billed as an inpatient stay. We are no longer
questioning eight other inpatient short stay claims due to the age of the claims and have revised
our finding and related recommendation accordingly.




                                                11
                                                    TABLE OF CONTENTS 




INTRODUCTION........................................................................................................................ 1 


       BACKGROUND ................................................................................................................... 1 

          The Medicare Program .................................................... ........ .. .............. ........ .. ............ 1 

          Hospital Inpatient Prospective Payment System ............ ........ .. .............. ........ .. ............ 1 

          Hospital Outpatient Prospective Payment System ......................................................... 1 

          Hospital Payments at Risk for Incorrect Billing ................................. ... ........................ 2 

          Medicare Requirements for Hospital Claims and Payments ......................................... 2 

          New York University Langone Medical Center ...................................... ........ .. ............ 3 


      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................. 3 

         Objective ..................................................................... ... ..................... ... ........................ 3 

         Scope .............................................................................................................................. 3 

         Methodology .......................................... .. ........ .. .............. ........ .. .............. ........ .. ............ 4 


FINDINGS AND RECOMMENDATIONS ................................................... ... ........................ 5 


       BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS .................................... 5 

           Inpatient Short Stays ........................................................................................ .. ............ 5 

           Inpatient Psychiatric Facility Emergency Department Adjustments ............................. 6 

           Inpatient Manufacturer Credits for Medical Devices .................................................... 6 

           Inpatient Same-Day Discharges and Readmissions ....................................................... 6 


       BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................ 7 

           Outpatient Claims Billed With Modifier -59 ................................................................. 7 

           Outpatient Evaluation and Management Services Billed with Surgical Services ......... 7 

           Outpatient Manufacturer Credits for Medical Devices .................................................. 7 

           Outpatient Claims Billed for Doxorubicin Hydrochloride ...................... ........ .. ............ 8 


       RECOMMENDATIONS ....................................................................................................... 8 


      NEW YORK UNIVERSITY LANGONE MEDICAL CENTER COMMENTS AND 

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................ 8 


APPENDIX

          NEW YORK UNIVERSITY LANGONE MEDICAL CENTER COMMENTS




                                                                        111
                                               INTRODUCTION 


BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary's stay is assigned and the severity level of the patient's diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary's stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children's Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per­
service basis that varies according to the ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC groUp.2 All services and items within an APC group are
comparable clinically and require comparable resources.




1   In 2009, SCRIP was formally redesignated as the Children' s Health Insurance Program.

2HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                          1

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

   •    inpatient same-day discharges and readmissions,

   •    inpatient short stays,

   •    inpatient psychiatric facility (IPF) emergency department adjustments,

   •    inpatient claims billed with high severity level DRG codes,

   •    inpatient claims for blood clotting factor drugs,

   •    inpatient hospital-acquired conditions and present on admission indicator reporting,

   •   outpatient claims billed with evaluation and management services,

   •   outpatient claims billed with modifier -59,

   •   outpatient doxorubicin hydrochloride, and

   •   outpatient and inpatient manufacturer credits for replaced medical devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as "risk areas."

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Reqnirements for Hospital Claims and Payments

Section 1862(a)(l)(A) of the Act states that Medicare payments may not be made for items and
services that "are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member." In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.



                                                   2

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter I, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

New York University Langone Medical Center

New York University Langone Medical Center (the Hospital) is a 1,069-bed acute care hospital
located in New York, New York. Based on CMS's National Claims History data, Medicare paid
the Hospital approximately $711 million for 37,389 inpatient and 289,617 outpatient claims
during the period July 1, 2008, through December 31,2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $3,466,115 in Medicare payments to the Hospital for 367 claims that we
judgmentally selected as potentially at risk for billing errors. These 367 claims consisted of 305
inpatient and 62 outpatient claims with payment dates from July 1, 2008, through
December 31,2010.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected a number of claims to focused medical review to determine whether the services were
medically necessary.

We limited our review of the Hospital's internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from November through December 2011.




                                                 3

Methodology

To accomplish our objective, we:

   • 	 reviewed applicable Federal laws, regulations, and guidance;

   • 	 extracted the Hospital's inpatient and outpatient paid claim data from CMS's National
       Claims History file for the period July I, 2008, through December 31,2010;

   • 	 obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for the period July I, 2008, through December 31,2010;

   • 	 used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   • 	 selected ajudgmental sample of367 claims (305 inpatient and 62 outpatient) for detailed
       review;

   • 	 reviewed available data from CMS's Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   • 	 reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   • 	 requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   • 	 utilized Medicare contractor medical review staff to determine whether a limited
       selection of sampled claims met medical necessity requirements;

   • 	 reviewed the Hospital's procedures for assigning HCPCS codes and submitting Medicare
       claims;

   • 	 discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   • 	 calculated the correct payments for those claims requiring adjustments;

   • 	 utilized an outside independent contractor to determine whether questioned inpatient
       short stay claims met medical necessity requirements; and

   • 	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                 4

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare requirements for billing inpatient and outpatient services
for 187 of the 367 claims we reviewed. However, the Hospital did not fully comply with
Medicare billing requirements for the remaining 180 claims,3 resulting in overpayments totaling
$613,279 during the period July I, 2008, through December 31,2010. Specifically, ISS
inpatient claims had billing errors resulting in overpayments totaling $589,018, and 25 outpatient
claims had billing errors resulting in overpayments totaling $24,261. These overpayments
occurred primarily because the Hospital did not have adequate controls to prevent incorrect
billing of Medicare claims and its staff did not fully understand the Medicare billing
requirements.

Only risk areas with errors are listed in the findings and recommendations section below.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for ISS of the 305 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $589,018.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that "are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member." Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, "with respect to inpatient hospital services ... which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual's medical treatment .... " 42 CFR § 424. 13(a) states that
"Medicare Part A pays for inpatient hospital services ... only if a physician certifies and
recertifies," among other things, the reasons for continued hospitalization.

For 120 of the 240 sampled claims, the Hospital incorrectly billed Medicare Part A for inpatient
claims that should have been billed as outpatient or outpatient with observation services
(119 claims) or did not have a valid physician's order to admit the beneficiary for inpatient care
(1 claim). Hospital officials attributed the patient admission errors to inadequate internal
controls for monitoring short stays and the lack of physicians' orders to human error. As a
result, the Hospital received overpayments totaling $556,156.




3This figure does not include eight inpatient short stays that we questioned in our draft report. We removed these
claims and their associated dollars from this final report due to the age of the claims.

                                                         5

Inpatient Psychiatric Facility Emergency Department Adjustments

Pursuant to 42 CFR § 4l2.424(d)(l)(v), CMS adjusts the Federal per diem base rate upward for
the first day of a Medicare beneficiary's stay at an IPF to account for costs associated with
maintaining a qualifying emergency department. CMS makes this additional payment regardless
of whether the beneficiary used emergency department services. However, the IPF should not
receive the additional payment if the beneficiary was discharged from the acute care section of
the same hospital. CMS requires that an IPF enter a source of admission code on each claim.
The Manual, chapter 3, section 190.6.4.1, states that source of admission code "D" should be
reported by IPFs to identify IPF patients who have been transferred to the IPF from the same
hospita1 4

For all 32 claims reviewed, the Hospital did not enter source of admission code "D" for
beneficiaries who were admitted to the IPF upon discharge from the acute care section of the
same hospital. Hospital officials stated that the errors occurred because source of admission
code "D" was not an available option within the Hospital's existing billing system. As a result,
the Hospital received overpayments totaling $3,270.

Inpatient Manufacturer Credits for Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8, states that
to bill correctly for a replacement device that was provided with a credit, the hospital must use
the combination of condition codes 49 or 50 along with value code "FD."

For 2 of the 10 sampled claims, the Hospital received full credit from the manufacturer for a
replaced medical device but did not report the "FD" value code to reduce payment as required.
The Hospital officials stated that these errors occurred due to inadequate controls to identify,
obtain, and properly report credits from device manufacturers. As a result, the Hospital received
overpayments totaling $23,450.

Inpatient Same-Day Discharges and Readmissions

The Manual, chapter 3, section 40.2.5, states:

        When a patient is discharged/transferred from an acute care Prospective Payment System
        (PPS) hospital and is readmitted to the same acute care PPS hospital on the same day for
        symptoms related to, or for evaluation and management of, the prior stay's medical
        condition, hospitals shall adjust the original claim generated by the original stay by
        combining the original and subsequent stay on a single claim.




4An IFF's proper use of this code is intended to alert the Medicare contractor not to apply the emergency
department adjustment.

                                                         6

For one of the eight sampled claims, the Hospital billed Medicare separately for a related
discharge and readmission within the same day. Hospital officials stated that the error occurred
because existing internal controls failed to identify the claim for case management review. As a
result, the Hospital received an overpayment totaling $6,142.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 25 of 62 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $24,26l.

Outpatient Claims Billed With Modifier -59

The Manual, chapter 23, section 20.9.l.1, states: "The '-59' modifier is used to indicate a
distinct procedural service .... This may represent a different session or patient encounter,
different procedure or surgery, different site, or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)." In addition, chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

For 15 of the 34 sampled claims, the Hospital incorrectly billed Medicare for HCPCS codes that
did not meet criteria for the use of modifier -59. Hospital officials stated these errors occurred
primarily because of human error, including the hospital staff's misinterpretation of Medicare
billing requirements for claims with modifier -59. As a result, the Hospital received
overpayments totaling $10,009.

Outpatient Evaluation and Management Services Billed with Surgical Services

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.

For 7 of the 13 sampled claims, the Hospital incorrectly billed Medicare for evaluation and
management services that were part of the usual preoperative and postoperative care associated
with the procedure. Hospital officials stated that the errors occurred because coding staff did not
fully understand Medicare billing requirements for evaluation and management services. As a
result, the Hospital received overpayments totaling $448.

Outpatient Manufacturer Credits for Medical Devices

Federal regulations (42 CFR § 419.45) require reductions in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal]] 03, dated November 3, 2006, and in the Manual explains how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished


                                                   7

on or after January 1,2007, eMS requires the provider to report the modifier "FB" and reduce
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.

For two of the three sampled claims, the Hospital received a full credit from the manufacturer for
a replaced device but did not report the required "FB" modifier or reduce the charges on its
claim. Hospital officials stated that these errors occurred due to inadequate controls to identify,
obtain, and properly report credits from device manufacturers. As a result, the Hospital received
overpayments totaling $11,726.

Outpatient Claims Billed for Doxorubicin Hydrochloride

The Manual, chapter 4, section 20.4, states: "The definition of service units ... is the number of
times the service or procedure being reported was performed." The Manual, chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.

For 1 of the 12 sampled claims, the Hospital incorrectly billed Medicare with an incorrect
number of units of doxorubicin hydrochloride. Hospital officials stated that the error occurred
because of human error. As a result, the Hospital received an overpayment totaling $2,078.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $613,279, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

NEW YORK UNIVERSITY LANGONE MEDICAL CENTER COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed with part of our first
recommendation and described actions that it has taken to address our second recommendation.
The Hospital disagreed with 101 of the 129 inpatient short stay claims questioned in our draft
report. Specifically, the Hospital stated that, based on the clinical indications demonstrated by
the patient and supported by the documentation in the medical record, the physician
determination for admission was justified and medically necessary for each of the claims. The
Hospital's comments appear in their entirety as the Appendix.

After reviewing the Hospital's comments, we maintain that our findings and recommendations
are valid for all but one inpatient short stay claim. We utilized both the Medicare contractor
medical review staff and an independent medical review contractor to determine whether 93
inpatient short stay claims met medical necessity requirements. Based on the contractors'
conclusions, we determined that 92 inpatient short stay claims should have been billed as
outpatient or outpatient with observation services. The independent medical review contractor
determined that one claim was correctly billed as an inpatient stay. We are no longer

                                                 8

questioning eight other inpatient short stay claims due to the age of the claims and have revised
our finding and related recommendation accordingly.




                                                 9

APPENDIX 

                                                                                                                       Page 1 of2


APPENDIX: NEW YORK UNIVERSITY LANGONE MEDICAL CENTER COMMENTS



          Langone Medical Center                                                         Nancy De.in, JD, MPA, CHC, CHIK
                                                                                         Vice P'e~ident
                                                                                         Compliance, P,i>'3C)' & Internal Audit




       June 14, 2012

       Mr. James P. Eden
       Regional Inspector General for Audit Services
       Office of IlJSpector General
       Office of Audit Services, Region I [
       Jacob K. JaviLS Federal Building
       26 Federal I'laza, Room 3900
       New York. New York 10278

       RE: Re pllrt Numbu: A-02-1l-01043


       Dear Mr. Eden:

       We are in receipt of the U.S. Department of J Icalth and Human Services, Office of Inspector
       General (OIG) draft report entitled Medicare Compliance Review of New York University
       Langone Medical Center for the period July I, 2008lhrough December 31, 2010.

       The Medicare Compliance Review sampled 367 claims across a variety of inpatient and
       outpatient areas, The audit concluded thai 189 of the 367 claims were billed incorrectly,
       resulting in overpayments of $653,969. The recommendations contained in the report include:

              •   refunding the Medicare contractor $653,969 and

              •   strengthening controls to ensure full compliance wilh Medicare requirements.

       NYU Langone Medica! Center takes the 0[G findings and recommendations very seriously,
       concurs with finding.~ of error on 88 of the 189 claims, and will make a refund of $t 79,038
       related to these claim errors. NYU Langone Medical Center docs not agree wilh the 010
       findings on 101 inpatient short stay claims worth $474,931. Based on the clinical indications
       demonst,dted by the patient and supported by the documentation in the medical record we
       believe the physician deternlination for admission is justified and medically necessary and we
       will exercise our rights to have a claim re-detennination conducted by our Medicare
       Administrative Contractor, National Government Services. Therefore, we will appeal these
       claims with National Government services.




          One Park Avenue. 10th Floor, New York. NY 10016' tel: 212.404 .4078' fa K: 212.4 0 4 .4421' nancy.dean@nyumc.org
                                                                                                    Page 2 0[2




NYU Langone Medical Center has reviewed the claims errors and has implemented various
processes and systems to prevent these errors from occurring in the future. All of the corrective
measures will be monitored on an ongoing basis to ensure that the Hospital remains in
compliance with Medicare billing requirements.

We are committed to ensuring we are compliant with Medicare billing rules and regulations. We
will continue to educate our staff and conduct auditing and monitoring activities to strengthen
and improve our internal controls.



                   j

Please contact me if you need any additional information.

Sincerely,




NaMeA C::::

Vice President Compliance, Privacy & Internal Audit
